<html>
<title> - NOMINATION OF ALEXANDRA DUNN TO BE ASSISTANT ADMINISTRATOR OF THE ENVIRONMENTAL PROTECTION AGENCY</title>
<body><pre>[Senate Hearing 115-549]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-549

                   NOMINATION OF ALEXANDRA DUNN TO BE
                     ASSISTANT ADMINISTRATOR OF THE
                    ENVIRONMENTAL PROTECTION AGENCY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 29, 2018

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


        Available via the World Wide Web: http://www.govinfo.gov
              
              
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-667 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dabdaab59ab9afa9aeb2bfb6aaf4b9b5b7f4">[email&#160;protected]</a>                             
              
              
              
              
              COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
ROGER WICKER, Mississippi            BERNARD SANDERS, Vermont
DEB FISCHER, Nebraska                SHELDON WHITEHOUSE, Rhode Island
JERRY MORAN, Kansas                  JEFF MERKLEY, Oregon
MIKE ROUNDS, South Dakota            KIRSTEN GILLIBRAND, New York
JONI ERNST, Iowa                     CORY A. BOOKER, New Jersey
DAN SULLIVAN, Alaska                 EDWARD J. MARKEY, Massachusetts
RICHARD SHELBY, Alabama              TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           NOVEMBER 29, 2018
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................

                               WITNESSES

Alexandra Dapolito Dunn, Nominated to be Assistant Administrator, 
  Office of Chemical Safety and Pollution Prevention, U.S. 
  Environmental Protection Agency................................     7
    Prepared statement...........................................    10
    Responses to additional questions from:
        Senator Carper...........................................    12
        Senator Booker...........................................    15
    Response to an additional question from Senator Capito.......    25
    Responses to additional questions from:
        Senator Duckworth........................................    26
        Senator Gillibrand.......................................    27
        Senator Markey...........................................    28
        Senator Merkley..........................................    31
        Senator Rounds...........................................    34
        Senator Whitehouse.......................................    37

                          ADDITIONAL MATERIAL

Letter from The Environmental Council of the States..............   159
Letters of support for the Nomination of Alexandra Dunn.........161-208

 
   NOMINATION OF ALEXANDRA DUNN TO BE ASSISTANT ADMINISTRATOR OF THE 
                    ENVIRONMENTAL PROTECTION AGENCY

                              ----------                              


                      THURSDAY, November 29, 2018

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:35 a.m. in 
room 406, Dirksen Senate Building, Hon. John Barrasso (chairman 
of the committee) presiding.
    Present: Senators Barrasso, Capito, Boozman, Fischer, 
Rounds, Ernst, Sullivan, Carper, Cardin, Whitehouse, Merkley, 
Gillibrand, Booker, Markey, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today, we will consider the nomination of Alexandra Dunn to 
be Assistant Administrator of the Environmental Protection 
Agency's Office of Chemical Safety and Pollution Prevention.
    Ms. Dunn is a well-qualified nominee and will bring a 
wealth of experience and expertise to this critically important 
position. I commend President Trump for nominating such an 
accomplished American and dedicated public servant.
    EPA's Office of Chemical Safety and Pollution Prevention 
protects the American people and the environment from potential 
risks posed by pesticides and toxic chemicals. The office 
implements the Toxic Substances Control Act, Federal 
Insecticide, Fungicide, and Rodenticide Act, Federal Food, Drug 
and Cosmetic Act, Pollution Prevention Act, and portions of 
other important environmental statutes.
    Ms. Dunn has an outstanding resume and is well-qualified to 
lead this essential work at the agency. As the current regional 
administrator for EPA's Region 1, Ms. Dunn is in charge of 
Federal environmental protection efforts in Connecticut, Maine, 
Massachusetts, New Hampshire, Rhode Island, Vermont, and ten 
tribal Nations.
    Previously, she built her career over two decades in a 
number of leadership roles in environmental law, legislation, 
policy, and regulatory affairs. Those roles included: executive 
director and general counsel of the Environmental Council of 
the States; executive director and general counsel of the 
Association of Clean Water Administrators; and general counsel 
of the National Association of Clean Water Agencies.
    Ms. Dunn has also served as chairwoman of the American Bar 
Association's Section of Environment, Energy, and Resources.
    Two former Obama administration assistant attorneys general 
for the Justice Department's Environment and Natural Resources 
Division have enthusiastically supported Ms. Dunn's nomination.
    Ignacia Moreno, who served in that position during 
President Obama's first term, wrote that Ms. Dunn would make 
``an outstanding assistant administrator.'' John Cruden, who 
served in the position during President Obama's second term, 
wrote: She will bring great management skills, a passion for 
the environment, and the ability to work cooperatively with 
States, environmental groups, industry, and academia.''
    He goes on to say, ``I can say, without any hesitation, 
that Alexandra Dunn is supremely well qualified, will be a 
great and good force for positive environmental action, and 
will be someone who carefully reviews, abides by, and 
implements the law.''
    Twenty-one former chairs of the American Bar Association's 
Section of Environment, Energy, and Resources jointly wrote in 
support of Ms. Dunn's nomination, as did Todd Parfit, the 
director of the Wyoming Department of Environmental Quality, 
and numerous other leaders and stakeholders from across the 
political spectrum.
    I look forward to hearing from Ms. Dunn as the committee 
members consider her nomination.
    I will now turn to Ranking Member Carper for his statement.

             OPENING STATEMENT OF HON. TOM CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, Mr. Chairman.
    Let me just say, thank you for your willingness to take 
this on. Thank you to the people sitting behind you who have 
your back. Some of them have had your back since you were a 
kid, some in high school, some in college, one of them is 
actually married to you and one of them, your son.
    I understand your mom is out there. Is her name Barbara? 
What is your mom's name?
    Ms. Dunn. Barbara.
    Senator Carper. She is out there somewhere watching this on 
television. We thank her for helping to raise you.
    I just want to say, Mr. Chairman, thanks very much for 
moving this nomination along and getting the nominee before us 
to see what she has to offer in leading EPA's Chemical Safety 
Office.
    Just over a year ago, it was publicly made clear that the 
Trump Administration's first nominee for this position, Michael 
Dourson, would never be confirmed by the U.S. Senate. I am 
pleased that he withdrew and his name was withdrawn.
    I am pleased to say to Ms. Dunn, with whom I had the 
pleasure of meeting last week, you are clearly no Michael 
Dourson.
    A majority of Senators signaled their intent to vote 
against Dr. Dourson's confirmation because they felt that he 
lacked the objectivity and credibility to be EPA's top chemical 
safety regulator.
    I am withholding judgment until we hear from Sheldon 
Whitehouse. When he makes his introduction, we will see how 
that goes. From what I know of Ms. Dunn's professional 
reputation, she does not lack objectivity or credibility.
    What I hope to better understand today, as we consider her 
nomination, is whether she represents a change in personnel or 
a change in direction, an important point. We need both.
    When Congress, the chemical industry and the environmental 
community worked together to overhaul the Toxic Substances 
Control Act in 2016, failed environmental law that dates all 
the way back I think maybe to the Jerry Ford Administration and 
never really worked.
    After almost three or four decades of failure, we decided 
to rewrite the bill. We were so excited we found consensus. A 
bunch of us in this room, Cory Booker, Ed Markey and others on 
both sides of the aisle, worked very hard to get this done.
    The new Administration taking over implementation of this 
new law, we are so proud of, has been an abject failure. What 
started off as a great salvation, we did our job, worked 
together, found common ground with all the stakeholders and had 
near unanimous support, and watched that ship come ashore on 
the rocks.
    It is a new day. All of us from Jim Inhofe to Ed Markey, 
who worked hard to build the near-unanimous vote to enact the 
new law because it was a failure, made it all but impossible 
for EPA to ban, or otherwise regulate, some of the most 
dangerous chemicals known to man.
    In any event, we are here today. You have been nominated 
and we think that is a good thing.
    The best I can tell there is almost no element of EPA's 
TSCA implementation efforts that has the vote of confidence of 
anyone at all. Instead of using the new law to protect 
Americans from exposure to toxic chemicals, the Trump 
Administration appears to have broken the new law repeatedly, 
subjecting itself to litigation that I, along with many others, 
believe the Administration will likely lose.
    Instead of looking at all of the uses of a chemical when 
evaluating a chemical's safety the way the law requires, EPA is 
completely ignoring many of these uses. That has led, and will 
continue to lead, to weaker protections for the most vulnerable 
among us.
    Instead of imposing enforceable requirements to ensure that 
both the public and workers are protected from exposure to new 
chemicals, EPA seems to be assuming that companies will take 
voluntary action to do so.
    Instead of looking at all of the scientific studies related 
to a chemicals safety, EPA is deliberately excluding 
independent university research and giving more weight to 
industry-funded studies. The one positive step EPA said it 
would take to finalize one of three chemical bans proposed by 
the Obama administration has been stalled, as we know, for 
almost half a year.
    Neither I, nor many of my Democratic colleagues, were under 
any illusions that we would agree on everything the Trump 
Administration EPA did. Nonetheless, I believe that all of us 
had hoped that the spirit of bipartisan cooperation and 
compromise that this committee drew upon when we were writing 
the new law would also be reflected in the new law's 
implementation.
    I, for one, am profoundly disappointed that this has not 
been the case. I know others share that view.
    I would like to learn today, Ms. Dunn, whether you can 
change that dynamic. I think leadership is key to everything. I 
do not care about the size of the organization; the key is 
leadership.
    I know from our meeting that you want to change it. The 
question is, will you have the authority and support from the 
rest of the political leadership at EPA, outside the EPA and 
the Trump Administration to be a change in direction, not just 
a change in personnel.
    If the answer is yes, I think there is a real possibility 
that you could be confirmed in short order. If the answer is 
no, then your nomination could be pending for some time, which 
is not what any of us want.
    In any event, we will be listening to your answers to 
questions today to begin to gauge which course it is likely to 
be. Let me add, however, that we will also be looking to Acting 
Administrator Wheeler for some specific commitments that will 
make possible a real change in direction for EPA's chemical 
safety efforts.
    Again, welcome to you and those who joined you today. To 
your Mom sitting back in Massachusetts, tell her we said hello 
and thanks for sharing her daughter with us.
    Thank you.
    Senator Barrasso. Thanks so much, Senator Carper.
    Now I would like to invite Senator Whitehouse to introduce 
Ms. Dunn.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Chairman.
    Colleagues, your eyes and ears do not deceive you. The 
Democratic junior Senator from Rhode Island is introducing a 
Trump environmental nominee. As you know, I have often 
vociferously opposed many of the current Administration's 
environmental nominees.
    Alex Dunn is the current Administrator of EPA Region 1, 
covering my home State of Rhode Island. She has been nominated 
to lead EPA's Office of Chemical Safety and Pollution 
Prevention.
    Unlike the highly conflictive first nominee to lead the 
office, Alex has a solid career largely independent of 
industry. I first met her in 2015 through Janet Coit, our 
deeply respected director of the Rhode Island Department of 
Environmental Management. Janet and Alex worked closely 
together when Alex was executive director and general counsel 
of the State Environmental Commissioners Organization, the 
Environmental Council of the States.
    At ECOS, Alex worked on some of the most controversial 
national environmental issues including regulation of toxic 
chemicals. Alex worked closely with this committee as we worked 
on TSCA to articulate State viewpoints in the reauthorization 
of the Toxic Substances Control Act. Her familiarity with the 
intricacies of this important statute will help her succeed in 
the role for which we consider her today.
    Throughout the past year, I have had the opportunity to 
observe Alex work diligently to fulfill EPA's mission of 
protecting human health and the environment as Regional EPA 
Administrator for the New England States. Ms. Dunn has a deep 
passion for working with communities, for environmental justice 
and for leveraging the expertise of non-governmental 
organizations. She has overseen enforcement actions that reduce 
public health risks as well as compliance initiatives that 
ensure proper chemical storage and management in New England.
    She prioritizes open communication around difficult issues 
and is well respected by our whole congressional delegation in 
Rhode Island. She is highly capable of successfully 
implementing the Frank R. Lautenberg Chemical Safety for the 
21st Century Act updating TSCA.
    This Lautenberg Act, as we remember in this committee, was 
the fruit of bipartisan negotiations involving many of our 
members across a wide spectrum of political orientation. That 
process exemplified the Senate at its finest, tackling a 
difficult issue in an effective way, ultimately through a 
compromise solution acceptable to both parties.
    We understand on this committee the bipartisan heritage of 
the Lautenberg Act, so does Ms. Dunn. If she is confirmed, I 
expect EPA leadership to allow her to implement the Lautenberg 
Act in the manner in which it was intended. I call on my 
colleagues on this committee to support Ms. Dunn in doing her 
job right.
    Bipartisan faith was forged here in the negotiation and 
passage of TSCA. The previous nominee was a living, walking 
breach of that faith. Ms. Dunn will keep the faith and I hope 
we all will too. That was a success of this committee that I 
hope we will honor.
    I am very pleased to welcome Ms. Dunn to the Environment 
and Public Works Committee and to support her nomination. I 
expect her to work closely with members of this committee, if 
confirmed, to ensure that the vision we had for the Lautenberg 
Act is realized as well as to carry out the many other 
important responsibilities at the Office of Chemical Safety and 
Pollution Prevention. I will count on her to resist improper 
interference with her work.
    Thank you, Ms. Dunn. Welcome to our committee.
    I yield back the floor.
    Senator Barrasso. Thank you very much, Senator Whitehouse.
    I would like to add my welcome to you to the committee, 
Alexandra Dunn, nominated to be Assistant Administrator of the 
Environmental Protection Agency's Office of Chemical Safety and 
Pollution Prevention.
    I would like to remind each of you that your full written 
testimony will be made a part of the permanent record. I am 
looking forward to hearing that.
    I would say I do have a letter of commendation to follow 
that of Senator Whitehouse also from the New England States. 
This is from Senator Susan Collins and supports your 
nomination. I ask unanimous consent to enter this letter into 
the record.
    Without objection, so ordered.
    [The referenced information follows:]
    
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. I look forward to hearing your testimony. 
We will now hear from you. Would you like to start by 
introducing your family and friends and then please proceed 
with your testimony?

STATEMENT OF ALEXANDRA DAPOLITO DUNN, NOMINATED TO BE ASSISTANT 
    ADMINISTRATOR, OFFICE OF CHEMICAL SAFETY AND POLLUTION 
        PREVENTION, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Ms. Dunn. Thank you very much, Chairman Barrasso, Ranking 
Member Carper, Senator Whitehouse, for your introduction, and 
to all members of the committee who are here. It is a great 
privilege to be here.
    In terms of introducing my wonderful family, in the order 
in which they are seated, I have my best friend from high 
school, my best dog watcher.
    Senator Carper. The gentleman on the left? He went to high 
school?
    Ms. Dunn. That is my policy advisor. They are: my best 
friend from high school; my favorite dog walking friend; my 
sister-in-law; my husband, Chris; my son, Sean; the best hockey 
goalie in Virginia and the East Coast, Sam Blanton; his mom, 
Ann, I am a hockey mom; my good friend from college, Nancy 
Haller Bender; and my good friend from EPA, Sonia Altieri.
    Senator Barrasso: Welcome to all of you.
    Ms. Dunn. My daughter, Caroline, is at college in 
Environmental Science right how. She said that her class would 
be streaming this. Hopefully they are having an educational 
experience right now at Muhlenberg College in Pennsylvania. 
Hopefully my mom figured out how to work the internet and is 
watching online.
    Good morning, Chairman Barrasso, Ranking Member Carper and 
distinguished members of the Committee. I am privileged to 
appear before you today as you carry out your responsibility to 
provide advice, and hopefully, consent for my nomination for 
the position of Assistant Administrator for the EPA Office of 
Chemical Safety and Pollution Prevention. I am deeply honored 
that President Trump, Acting Administrator Wheeler, and this 
committee are considering me for this role.
    Members of the committee, I bring to this role 24 years of 
complete dedication to environmental law, policy, regulation, 
and its implementation. The many perspectives from which I have 
experienced the body of Federal environmental law have prepared 
me well for the role for which I have been nominated.
    I have worked for the Nation's municipalities, built 
compromises across the environmental directors of all 50 States 
at ECOS. I have represented regulated industry on environmental 
justice and trained hundreds of future environmental 
professionals as a Dean at Pace Law School and Adjunct 
Professor of Law at three law schools.
    Since January, as you heard, I have had the privilege to 
serve President Trump as the Regional Administrator of EPA 
Region 1, New England. Alongside the incredible career EPA 
staff, all 520 of them in New England, who daily advance EPA's 
core mission of protecting public health and the environment, 
Region 1 has taken very tangible steps to restore waterways; 
remove chemicals from and accelerate the redevelopment of 
Superfund and brownfield sites; respond to deeply needy tribal 
nations; advance justice; implement lead protection strategies; 
contribute to the national conversation PFAS and reduce 
chemical hazards in our communities.
    This experience has increased tenfold my respect for EPA as 
a tremendous Federal agency with the capability to do great 
good and my appreciation of the career EPA staff who work daily 
to ensure public safety and environmental protection.
    If confirmed, I am confident I will lead and manage the 
Chemicals Office at EPA to deliver on Congress' vision for an 
impactful and effective implementation of the Frank R. 
Lautenberg Chemical Safety for the 21st Century Act.
    As the only environmental statute overhauled in recent 
years, with overwhelming bipartisan support as referenced from 
many of you here today, this law's implementation requires 
strong and transparent leadership.
    In preparation for today, I reflected on my own work 
regarding the statute's long journey to reform. As debate was 
robust when I was Chair of the American Bar Associations 
Section of Environment, Energy and Resources, and while I was 
at ECOS, we worked across States collaboratively with Congress, 
particularly on the preemption provisions.
    I also met with many members of this committee. I spoke to 
environmental organizations, community and worker groups, 
States, and industry, to be here today. Without question, there 
are strong views about how this law should be implemented to 
realize the bipartisan vision that brought it across the finish 
line in 2016.
    If confirmed, I commit to keeping an open door to all 
groups and entities interested in seeing this law reach its 
full potential. With deadlines fast approaching and complex 
risk assessments ahead, EPA has a heavy workload.
    Under the letter of the law and the support of this 
committee, President Trump and Acting Administrator Wheeler, I 
am confident that EPA can fulfill with credibility and respect 
the role that Congress gave us when it put TSCA's 
reauthorization and implementation in the agency's hands.
    The Chemicals Office has many important roles and functions 
beyond Lautenberg's implementation which I will carry out with 
equal dedication and interest. These include ensuring the safe 
regulation of pesticides under the Federal Insecticide, 
Fungicide and the Rodenticide Act and the Federal Food, Drug 
and Cosmetic Act, as well as safer chemistry programs.
    In conclusion, Senators, if confirmed, I will ensure that 
all programs under my office's responsibility thrive, produce 
meaningful environmental outcomes, demonstrate the highest and 
best use of science, and responsibly use taxpayer resources.
    Mr. Chairman, members of the committee, while I would miss 
working with the team at EPA New England very much and perhaps 
miss living with my mother, I am ready to, with your advice and 
consent, return to Washington to my family to carry out EPA's 
mission in the Office of Chemical Safety and Pollution 
Prevention with integrity and transparency.
    I respectfully request your support and I look forward to 
your questions. Thank you very much.
    [The prepared statement of Ms. Dunn follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you so much for your testimony.
    Throughout this hearing and with questions for the record, 
the committee members will have an opportunity to learn more 
about your commitment to the public service and our great 
Nation. I would ask that you please respond both to the oral as 
well as the written questions that may be asked of you by the 
committee.
    I have to ask several following questions that we ask all 
nominees on behalf of the committee. Do you agree, if 
confirmed, to appear before this committee or designated 
members of this committee and other appropriate committees of 
the Congress and provide information subject to appropriate and 
necessary security protections with respect to your 
responsibilities?
    Ms. Dunn. I do.
    Senator Barrasso. Do you agree to ensure that testimony, 
briefings, documents in electronic and other forms of 
communication of information are provided to this committee and 
its staff and other appropriate committees in a timely manner?
    Ms. Dunn. Absolutely.
    Senator Barrasso. Do you know of any matters which you may 
or may not have disclosed that might place you in any conflict 
of interest if you are confirmed?
    Ms. Dunn. I am not aware of any matters.
    Senator Barrasso. Thank you for the answers.
    I am going to reserve the balance of my time for use during 
the hearing.
    Senator Carper. If you are confirmed for this position for 
which you might be moving out of your mom's house, does she 
know this? That is my first question.
    [Laughter.]
    Ms. Dunn. She is aware.
    Senator Carper. Is she OK with this?
    Ms. Dunn. She is OK with it. I think she is going to miss 
me.
    Senator Carper. She will miss you when you are gone.
    Getting on to a more serious note, I know you worked hard 
on the laws and you talked about it here today. Some of our 
staff members behind me and on either side of me worked with 
you in your previous capacities, and folks back in Delaware, 
several Secretaries of the Department of Natural Resources and 
Environmental Control, one of who is now leaving the National 
Wildlife Federation.
    They know of your professionalism firsthand. We have heard 
a bunch of lovely testimonials about the work you have done and 
the way you have conducted yourself in your current capacity 
and previous capacities. Having said all that, none of that 
will matter if you cannot or do not make real changes in the 
agency's chemical safety efforts.
    The first question is, can you tell us briefly what changes 
you intend to make if you are confirmed and what assurances you 
have from the political leadership at EPA that you will have 
the authority to make those changes?
    Ms. Dunn. Senator, that is a very good question. If 
confirmed, I intend to immediately hold open door hours with 
the career staff at EPA. I want to find out where they are 
being listened to, how they are being treated, and how their 
decisions are being valued by the team.
    I intend to work closely with all members of this very 
large office, but I do want to be open to them. I have learned 
working in EPA New England that the EPA career staff are 
experts. They know what they are doing, they have great 
recommendations, and they work hard.
    My first priority will be to connect with the career staff, 
let them know their opinions are valued, and let them know 
that, as a leader, I want to hear from them. I intend to, as 
Acting Administrator Wheeler has done, include career staff in 
briefings, and make sure we are listening to them. That is one 
change I intend to make. I do not know if it is a change but it 
is how I operate.
    The second thing I would like to do is prioritize the 
workload that we have. As you know, the statute has a number of 
deadlines. We have 3 years of work that has occurred under the 
reauthorized law and we have more things happening in 2019.
    I would like to work closely with you and your colleagues 
to find out where EPA can make the most impactful changes to 
the work that has occurred. Do we need to look backward or do 
we need to look forward? I am willing to do both but I think we 
have to prioritize which direction to go.
    I intend, as a second action, to take a very, very 
comprehensive look at the workload and prioritize the tasks we 
need to implement.
    Senator Carper. Be very brief on the third thing because I 
have one more question I want to ask you before my time 
expires.
    Ms. Dunn. The third thing I would commit to doing is 
maintaining regular contact both with this committee, and also 
certainly the members of the House who are passionate about 
this statute, to hear firsthand what you expected.
    Senator Carper. Thank you.
    Less than a year ago, I think in your previous capacity, 
you sent to the EPA a letter stating that the law requires all 
uses of a chemical to be evaluated. I would ask unanimous 
consent for that letter to be submitted for the record.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Ms. Dunn, do you still agree that the law 
requires EPA to evaluate all the ways someone might be exposed 
to a chemical? If you are confirmed, what will you do to ensure 
that EPA follows that part of the law?
    Ms. Dunn. If confirmed, Senator, I commit to implementing 
the law, following the law, and bringing all the provisions of 
the law to full effect.
    Senator Carper. The new law includes language, as you may 
recall, directing EPA to use the best available science as it 
evaluates a chemical's safety. Unfortunately, Trump's EPA is 
not implementing that part of the law well, at least in our 
estimation. Specifically, currently politically, the office you 
have been nominated to lead has developed a document that would 
have the result of systematically excluding scientific studies 
from being used as part of EPA's chemical safety effort.
    For example, scientists at the University of California, 
San Francisco, reviewed high quality scientific studies that 
showed that exposure to some flame retardant was harmful to 
children, a conclusion that the National Academy of Sciences 
later said it agreed with but EPA's new process would actually 
prevent studies like that from being considered.
    Don't you think that the best available science should mean 
that all relevant studies should be considered by EPA when it 
is assessing the safety of a chemical?
    Ms. Dunn. Senator, I agree with you. EPA is a science-
driven agency. That is why we were founded, to be based on 
science. I commit, if confirmed in this position, to using the 
best available science to make our decisions.
    Senator Carper. Thank you.
    Senator Barrasso. Thanks, Senator Carper.
    I want to follow-up a bit about some of the things in the 
law. I want to discuss a class of about 5,000 chemicals known 
as PFAS, the polyfluoroalkyl substances. Members of the public, 
State officials and many in Congress are concerned about the 
threat that these chemicals pose to human health and the 
environment, an especially urgent concern among those living on 
or near military bases, which is a fundamental point here. At a 
minimum, I think the EPA must speak clearly about the level of 
risk associated with these chemicals and not just talk about it 
but take decisive action where it is warranted.
    I know you have had experience with this issue as EPA's 
Region 1 Administrator. If confirmed, could you talk about how 
you intend to address these PFAS chemicals nationally?
    Ms. Dunn. Thank you, Senator.
    New England is often considered ground zero for the PFAS 
issue. We have many affected communities. All six New England 
States have detected the presence of PFAS in their communities.
    As Regional Administrator, I was proud to be able to host 
the first national regional forum on PFAS constituents. We met 
for 2 days. We made sure that community groups were front and 
center at that event so that we could hear from, frankly, the 
groups of parents, mothers and true activists who have learned 
about the presence of these contaminants in their communities, 
and who have become environmental experts when that is not 
their day job. They have researched and they have learned. We 
created a forum for them to bring forward those views.
    At EPA, we now are working hard to complete a national 
action plan around PFOS and PFAS. My understanding is that 
national action plan will be ready soon.
    Senator Barrasso. I wanted to turn to TSCA which has 
already been raised by Senator Whitehouse in his introduction. 
It is something Congress passed in 2016, comprehensive 
legislation to reform a 40-year-old law.
    Since then, the EPA's implementation has received some 
scrutiny. The environmentalists and chemical manufacturers have 
both been critical of EPA's implementation of the new chemical 
program for different reasons.
    If confirmed, how do you intend to address the competing 
interests surrounding the TSCA reform legislation?
    Ms. Dunn. Senator, this is a part of how I have operated 
throughout my entire career with very, very diverse opinions. I 
respect diverse opinions but I often find that if you have open 
and real conversation, you can reach a middle understanding.
    What I would like to do is try to bring those groups 
together, if they can be brought together, then meet with them 
separately, hear their concerns and then work to find that path 
forward that allows EPA to make progress, meet our statutory 
deadlines, provide protection of the American public, but to 
keep the system moving forward.
    Senator Barrasso. I want to now discuss methylene chloride. 
I understand this chemical has been blamed in dozens of 
accidental deaths across the country. In 2017, at one point, 
the Obama administration proposed banning methylene chloride 
for use in consumer and chemical paint strippers. In May of 
this year, the EPA indicated it would finalize that ban. EPA 
has yet to do so. In the meantime, Home Depot, Lowe's and 
Sherwin Williams have announced they are going to remove these 
paint strippers from their shelves.
    If confirmed, do you have plans for addressing this issue?
    Ms. Dunn. Absolutely, Senator. I am absolutely aware of the 
dangers of this chemical and the widespread public concern 
regarding it. If confirmed to this position, I will make it a 
top priority to be briefed on where we stand in the process and 
report back to your office and any others on this committee who 
have an interest in the status of this work.
    Senator Barrasso. My final question is with regard to 
FIFRA. For years, members of the public have expressed concerns 
that EPA is not doing a better job addressing the hazards 
associated with pesticides. In many instances, the public has 
turned to State governments and even the courts for stricter 
controls on pesticides.
    I think it is fair to say that a patchwork of State 
regulations is not what anyone wants in terms of what is out 
there on this specific topic. If confirmed, how would you boost 
the public's confidence in the EPA's regulation of pesticides 
under FIFRA?
    Ms. Dunn. Currently, Senator, we are in a position to be 
retaining new expertise, bringing on additional staff so that 
we can be more timely with our work under FIFRA. Also, I 
believe we can communicate our work as expeditiously as 
possible. I agree that a patchwork of regulations can be 
problematic and in fact, that is what TSCA was designed to try 
to address.
    I commit to working with you and your office on ensuring 
that FIFRA works well.
    Senator Barrasso. Thank you for your answers.
    Senator Merkley.
    Senator Merkley. Thank you very much, Mr. Chairman.
    Thank you so much for your service in the cause of trying 
to build a better world and a better environment.
    To begin, the question I have is in regard to asbestos. 
Specifically, 60 countries have banned it, saying there is no 
safer controlled use of it. Now we have the EPA setting up a 
SNUR process that essentially lists 15 potential uses but 
anything outside of those 15 could be done without EPA review. 
It is like a free pass.
    Why would we want to give a free pass to any potential use 
of asbestos in our environment? Is that something you have been 
briefed on and any concerns about?
    Ms. Dunn. Senator, in my current role as Region 1 
Administrator, I am not responsible for asbestos regulation. 
However, I commit to you that, if confirmed to this position, I 
will be immediately briefed on this matter.
    I understand the great concern with asbestos in the 
environment and the deaths that have occurred due to asbestos 
exposure. I would like to work with your office on this.
    Senator Merkley. From a philosophical point of view, 
though, you do not have any inclination that we should 
necessarily have new uses of asbestos that do not go through 
some form of chemical review?
    Ms. Dunn. New uses of asbestos, my understanding is they 
would be reviewed through the significant new use rule.
    Senator Merkley. Apparently not, according to the briefing 
we received on this, if outside the 15 listed uses. That is the 
concern.
    There is also Section 6 in the law of TSCA. It says EPA has 
the authority to prohibit or limit the manufacture, processing, 
distribution, so on and so forth, of a chemical that represents 
an unreasonable risk to human health or the environment. That 
unreasonable risk has been demonstrated for asbestos time and 
time and time again.
    Would you commit to looking at Section 6 as a pathway to 
possibly joining the other 60 nations that have banned asbestos 
in order to ban it here in the U.S.?
    Ms. Dunn. Senator, I absolutely understand your concern 
with asbestos. I commit, if confirmed to this position, to 
being briefed on this matter, looking at all opportunities that 
we have under the law, the authorities we have to manage this 
risk, and immediately report back to your office.
    Senator Merkley. Thank you.
    One of the things that symbolically disturbed me is we do 
not manufacture asbestos in the U.S. anymore. It previously 
came from Brazil but they banned it because they said, no, this 
is hurting people.
    Now we import it from Russia. Russia sent over their 
packing of asbestos with a picture of our President, with 
written in Russian a word that represents endorsement, implying 
that our government endorses the use. Symbolically, that is not 
where we want to be.
    The whole point of TSCA was to take chemicals that had not 
been reviewed in the past that were everyday household products 
and say, no, we are actually going to consider human safety in 
their use. It was in 1991, I believe, when the ship ran ashore 
on controlling toxic substances in everyday use.
    Here we are a generation later, finally with this chance. 
You would be the captain of that ship. Can we count on you to 
be a good captain on this topic?
    Ms. Dunn. Senator, you can definitely count on me to work 
with our team and come up with the most public health 
protective and environmental protective outcomes under the law.
    Senator Merkley. Thank you, diplomatically stated.
    I wanted to turn to the new chemicals. In this case, there 
is a process that has been underway in which the law said the 
chemical should be reviewed for proposed uses by the 
manufacturer, intended uses, but all other known or reasonably 
foreseen future uses.
    That latter clause has been essentially nullified, 
dramatically changing the congressional intent. Can you take a 
look at that and make sure the law, as written, which said look 
at both what the manufacturer says it is going to be used for, 
but all other potential, reasonably foreseen uses or known uses 
and that full scope gets examined so we are not just looking at 
a single use as stated by a manufacturer?
    Ms. Dunn. Senator, in my preparation for today, I learned 
that is an issue of great concern to many groups. If confirmed 
to this position, I commit to being briefed on the matter by 
our team, getting back to your office and answering your 
question directly.
    Senator Merkley. Thank you.
    Senator Barrasso. Senator Capito.
    Senator Capito. Thank you, Mr. Chairman. Thanks to the 
Ranking Member.
    I want to thank our nominee. Thank you for your past 
service and future service. I think it is a great chance for us 
to get to hear from a very qualified nominee in Ms. Dunn. Thank 
you for being here.
    I want to go back to PFAS. You and I visited in my office. 
I know before you were living with your mother, you were in 
Loudoun County and will be back to Loudoun, Virginia which is 
right across the way from where we have had some issues with 
PFAS in West Virginia.
    This has already been touched on but it since it hits 
several communities in my State, I just want to reinforce my 
feelings and some frustrations we have had over the last year, 
I would say, in not getting the full picture and release of the 
full data around possible effects of PFAS in the communities.
    Having said that, you have had a lot of experience with it 
but I would like to have your commitment that you will work 
with all of us and the public to make sure we are getting all 
of the released studies, recommended levels and all of those 
things and be able to make a fair comparison and also an 
informed decision.
    Ms. Dunn. Absolutely, yes, Senator, I can commit to making 
sure the studies you are asking about are available and that we 
look at a full suite of information regarding these chemicals 
and their persistence in the environment. It is certainly 
something I have been working with in New England, as I 
mentioned, in all six of our States.
    Senator Capito. It was mentioned that some of these are 
around military installations which is the case of our one in 
Martinsburg. I have to say we were able to get some concessions 
from the Department of Defense in the appropriations bill this 
past year to help these local communities on the cleanup of 
these areas.
    I do not think it has completely taken care of all the 
issues but it is certainly a good start for our areas. I am 
pleased about that.
    Let me ask you this. We have, from time to time and 
probably more times, conflicts between our State and Federal 
regulators, who has primacy, who has jurisdiction, and who is 
encroaching on who. I think it becomes a very sensitive issue 
at the State level certainly for all of us who work with our 
State regulators all the time.
    You have a lot of experience in working with State 
regulators. I am sure you have experience in seeing the 
tensions that can exist from time to time. In your new role, 
how would you address that issue? How do you see your office, 
your new office, in terms of decisionmaking, overruling States, 
or working with States? How do you work out those issues 
because they can be very difficult from to time?
    Ms. Dunn. Yes, they can, Senator. I agree with you. States 
have assumed 98 percent of the delegable programs under Federal 
environmental law. States bring 90 percent of the enforcement 
actions.
    Certainly coming from ECOS, I have a healthy respect for 
our State environmental agencies. They are truly the boots on 
the ground and do excellent work.
    In New England, we have developed a real partnership where 
we consult with the State on matters. Sometimes the State asks 
for our help and we are happy to be there. However, we do not 
just assume that EPA is welcome. We ask the State if they need 
our resources and support.
    For example, we have done that on PFAS or vapor intrusion 
where some of our New England States have specifically asked 
EPA to come in and assist them. We have that capability. Also, 
if a State is short on resources or needs our capacity, we are 
able to bring that additional capacity.
    Our presumption has been that the State is able to take 
effective enforcement actions and they have largely proven that 
to be correct. Yes, the agency sometimes needs to over file if 
something is not going well in a State, but that is usually 
after consultation with the State. We speak with them and say 
it is now time that EPA has to step in and do this work.
    In my new role, the chemicals and pesticides programs are a 
bit more headquarters-centric, not all the authorities are 
given to the States as they are under air, water, and land. 
Notwithstanding any actions we take, I will maintain open and 
regular communication with our State environmental officials.
    Any State that would be impacted by our decision deserves 
early and open communication, not just being told what we are 
going to do but being consulted and asked how it will impact 
the State and then making a decision that works for both.
    Senator Capito. I think in terms of asking the State, 
working with the State is the way to go. I think some State 
regulators get very frustrated and feel they take opinions, 
they weigh in on certain actions and then it is like blowing in 
the wind, they do not either get a response or any feeling they 
are really a part of the process.
    I think if we are going to expect to do the enforcement 
actions, the policing and have the work force to be able to do 
that, we have to work together on this. I appreciate that.
    Thank you.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Mr. Chairman.
    Welcome, Ms. Dunn. It is good to see you here in Washington 
and not just up in Rhode Island, our wonderful New England 
region.
    I have noticed, as the political staff have been working on 
this issue, in this Administration that there has been what I 
consider to be unnecessary and unjustified narrowing of the 
exposure pathways that EPA will consider in enforcing the TSCA 
risk evaluations.
    I would ask whether, as the first Senate-confirmed 
Assistant in this Administration, you will review what has been 
done before you and come to your own conclusions about what 
those exposure pathways should be?
    Ms. Dunn. Yes, Senator Whitehouse, I understand this is an 
issue of great concern. I have heard it raised by many of the 
environmental organizations I have spoken with. Yes, I confirm 
to be fully briefed on this matter, finding out exactly how and 
why we are taking the approach we have been taking, and then 
coming back and talking to you about whether there are 
alternate approaches we could implement.
    Senator Whitehouse. On another matter, the Lautenberg Act 
amendments that revived TSCA are fairly recent. On this 
committee are both Republican and Democratic staff who worked 
very carefully and well together to help us put together a bill 
that could pass with the strong support this received.
    I would propose to you that might be something you could 
consider as a resource, particularly speaking with bipartisan 
groups of those staffers, as you and your team work through 
what our intention was in trying to amend and revive this law.
    Ms. Dunn. We are of similar mind there, Senator, because I 
have thought that perhaps regular communication with the staff 
that helped draft the provisions and worked on the law, they 
know what they intended, that those kinds of conversations 
would be really important as we move forward with new 
obligations and new steps under the statute.
    Senator Whitehouse. Terrific. Thank you.
    My last question is more of a process question. We have 
received a lot of reports about political staffers in EPA, 
including in your area, presuming you are confirmed, 
responsible to the office you will hold, refusing to put 
instructions to career staff in writing.
    That sends up a bit of a red flag for many of us who think 
congressional oversight is an important responsibility. It also 
appears to run afoul of 36 CFR 1222.22 which is a regulation 
requiring Federal employees to ``document the formulation and 
execution of basic policies and decisions, including all 
substantive decisions and commitments reached orally.''
    When you have political staff, many of whom have highly 
suspicious contacts with the regulated industry, who are 
dealing with officials and refusing to go on record, refusing 
to follow that regulation, as you can imagine, that sends up 
all kinds of warning signals.
    These regulations are there for a reason. Congressional 
oversight exists for a reason. Presuming you are confirmed to 
this position, I hope you will be firm about assuring that the 
procedural requirements for agency decisionmaking are properly 
met.
    Ms. Dunn. Senator, I am not in that office now, so I am not 
aware of the practices that have occurred but given my 
experience in EPA New England, whenever you work in a large 
office with multiple players, it is very important to be able 
to codify in writing what the manager is asking of the staff so 
that everyone is clear. It certainly seems reasonable to 
proceed in that direction.
    Senator Whitehouse. Last question is will you answer your 
mail?
    Ms. Dunn. Any mail that I receive, I will absolutely answer 
the mail.
    Senator Whitehouse. Great. Thank you. God knows how many of 
our letters have gone into the great black hole of EPA with no 
response whatsoever from anyone. We would like to improve on 
that.
    Ms. Dunn. I will answer your letters.
    Senator Whitehouse. Thank you.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Senator Boozman.
    Senator Boozman. We appreciate that. Even if someone is on 
the other side of the aisle, that is something we all have in 
common. It really does not matter what Administration is in 
power at the time. It is frustrating not to get answers as to 
what is going on. We appreciate your willingness to do that.
    It is good to have you here. We appreciate the great work 
you have been doing since being appointed as Regional 
Administrator for Region 1. You have many, many 
accomplishments.
    You hosted a national summit to curb harmful chemicals in 
drinking water, issued a report outlining the agency's efforts 
to promote recycling, cleanup rivers and implemented a plan to 
reduce stormwater runoff. It is worth noting that you were able 
to accomplish these great things while earning praise from New 
England environmental leaders and Curt Spalding, your 
predecessor from the previous Administration.
    I guess the question is how do you feel your current role 
as regional administrator has prepared you for the role of 
Assistant Administrator of the Office of Chemicals Safety and 
Pollution Prevention?
    Ms. Dunn. Thank you, Senator, for that question.
    Being a regional administrator is wonderful preparation for 
coming back to headquarters, if confirmed, to run what we call 
national programs. When you are in the regions, we have 520 
career staff at EPA New England, and you realize how often you 
receive missives, directives, and memos from headquarters that 
ask the regions to take certain actions or various steps.
    I have been able to see how those transmittals kind of 
ripple through the agency and through the staff. I have really 
learned, coming to Washington, the importance of clarity from 
what we are seeking as a national program out in the regions, 
if we need the regions to take certain steps, to be very clear 
about those steps.
    The other thing I have really learned is when you become a 
regional administrator you are a solo political appointee 
essentially. You immediately work side by side, shoulder to 
shoulder with the EPA career staff. You cannot surround 
yourself with other appointees. There are no other appointees.
    I learned that the career staff at EPA has the agency's and 
public health's best interests at heart. They want us to 
succeed. They want the appointee to succeed. They want to give 
us good advice.
    I will bring back to headquarters great appreciation for 
the expertise of the career staff at EPA and will turn to them 
for good guidance and good input on the decisions we need to 
make.
    Senator Boozman. It seems you have had the ability to be 
able to work with both sides of the aisle, to reach across and 
get consensus. Tell us about that. What has been your secret in 
doing that and are you committed to doing that in the future?
    Ms. Dunn. Maybe what I have learned reflects a time when I 
was at ECOS when we were in the middle of discussions about air 
quality and climate. We had a bit of a debate between the 
California EPA Secretary and the Texas Commissioner.
    When I walked away from that, actually all of us listening 
walked away, realizing that both people had very, very good 
reasons for bringing the perspective they brought. The Texas 
Commissioner talked about issues surrounding Texas and energy 
that he was facing. The California Secretary had a different 
perspective.
    What you walk away with from something like that is 
realizing that both perspectives are valid. If you immediately 
discount one or the other, you are really losing the 
opportunity to come up with an outcome that works for everyone. 
By not validating or seeing as valid an opinion that might 
differ from your own, I think you might run the risk of ending 
the conversation prematurely.
    Senator Boozman. I think that is well said. We do 
appreciate the fact that you are willing to take on a big job. 
This is very, very important.
    Thank you, Mr. Chairman.
    Ms. Dunn. Thank you.
    Senator Barrasso. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    Ms. Dunn, I have a working relationship with you in the EPA 
but it is a long way from Rockport to that seat.
    Ms. Dunn. Yes, it is.
    Senator Markey. A long way and a different environment in 
this committee, and I would like to go through a few issues 
with you.
    I was the Ranking Member on the subcommittee with 
jurisdiction as this bill went through in 2015 and 2016. There 
were many things in the bill I wanted to make sure were 
included, but one thing was I wanted the firefighters to be 
happy. That goes to asbestos and formaldehyde.
    I told them nothing would move and I would have to hold 
until we got what the firefighters would guarantee me would 
make them happy. It is in the bill. You need implementation.
    I have repeatedly asked the EPA leadership, including 
Pruitt and Administrator Wheeler, to release an EPA analysis 
that indicates formaldehyde causes cancer. Administrator Pruitt 
even admitted this analysis had been completed but it is 
reportedly being suppressed by political staff.
    Ms. Dunn, can you commit right now that you would release 
this analysis in your first month as Assistant Administrator, 
if confirmed? We need someone who is going to cut through 
political censorship at the EPA, not compound it. Will you 
release that report?
    Ms. Dunn. Senator, I commit to you, if confirmed to this 
position, immediately finding out the status of the 
formaldehyde work, why it is not completed along the timeframe 
that you had heard it should be, and to getting right back to 
you and letting you know what timeframe it will be on.
    Senator Markey. If it is completed, I expect it to get 
released. I will just say that to you right now.
    The office you are nominated to lead decided to create its 
own method for evaluating scientific evidence. This method 
significantly diverges from standard review practices. This 
untested, unreliable system means, for example, that a recent 
study revealing damaging impact to children's intelligence from 
exposure to hazardous flame retardant might not be included in 
reviews required by the Toxic Substance Control Act.
    Will you commit to having the TSCA systematic review 
process peer-reviewed by the experts at the National Academy of 
Sciences?
    Ms. Dunn. Senator, I have heard a lot about the systematic 
review process that the office is currently implementing. It is 
not something I have been fully briefed on but I will commit to 
making it a top priority, if confirmed, and coming back to you 
and letting you know exactly what we can do to address your 
concerns.
    Senator Markey. I want the National Academy of Sciences to 
review it because I want to know what chemicals are affecting 
the health of America's children. I want to know that the EPA 
is using sound science to deal with it.
    Will you commit to using the National Academy of Sciences 
as a review back up?
    Ms. Dunn. Senator, what I would like to do is learn why we 
may not be using the Academy right now. I have worked with the 
Academy before and they are an excellent entity. I will commit 
to getting back to you on whether that is a possibility.
    Senator Markey. Since 2011, the EPA has warned that the 
toxic chemical trichloroethylene, TCE, causes cancer. The 
Environmental Working Group estimates that TCE contaminates the 
tap water of 14 million Americans.
    This is one of the toxic substances found in Woburn, 
Massachusetts. I was on the committee that wrote that bill in 
1980, so a lot of that language was included in the original 
Superfund bill because of Woburn and my ability to get the 
language in. Woburn parents, like Anne Anderson, worked 
tirelessly to expose the link between hazardous waste and high 
rates of leukemia in their children.
    The EPA, the Obama EPA, proposed to ban TCE in January 
2017. In December 2017, the EPA, the Pruitt EPA, decided to 
indefinitely postpone the ban on this deadly chemical. We do 
not have time to waste. The victims of this toxic chemical 
deserve a resolution and deserve justice.
    Ms. Dunn, if confirmed, can you commit to not delaying this 
ban any longer and finalize it immediately?
    Ms. Dunn. Senator, Woburn was one of the first communities 
I visited when going to New England. You and I talked about how 
horribly the community was impacted by the presence of 
chemicals in their environment. Ms. Anderson is really a local 
hero. I understand the concern about exposures to these 
chemicals.
    If confirmed to this position, I commit to you to find out 
where we are in the process of looking at the degreasing and 
dry cleaning elements of this chemical and getting back to you 
on a timeframe.
    Senator Markey. Thirty years later, when I announced for 
the U.S. Senate in 2013, I asked Anne Anderson to introduce me 
as the candidate. That is how profoundly powerful that issue is 
for me. Her son, Jimmy, died and it was avoidable. You know 
Woburn and you know New England, so you know how important this 
issue is.
    Ms. Dunn. Yes, I do.
    Senator Markey. How we have to resolve it.
    I am going to throw in methylene chloride and N-
Methylpyrrolidine so that you also know that is on my list 
because they have to be banned. They have no place in our 
society.
    I appreciate your work up in New England but the question 
is you might take over the Toxic Office or you could be taken 
over by the Toxic Office. That is going to be the challenge. 
Thus far, I am completely unsatisfied with what has happened.
    A lot of work has gone into putting together a very good 
bill on a bipartisan basis with a consensus that we had to deal 
with these chemicals. You are the one person who can finally 
step up and tell the politicians in that agency to get out of 
the way and let science rule, let safety rule, let children be 
protected and firefighters be protected.
    I thank you, Ms. Dunn, and thank you for your work with me 
over the years.
    Ms. Dunn. Thank you, Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Markey.
    I would note that the Center for Biological Diversity 
supports Ms. Dunn's nomination. The director of the 
organization's Environmental Health Program writes ``Ms. Dunn 
is a consummate professional and, at EPA Region 1, has taken 
her oath of office to uphold the laws and protect the 
environment seriously.''
    I ask unanimous consent to enter this letter into the 
record. Without objection, it is entered.
    [The referenced information follows:]
    Senator Barrasso. Senator Booker.
    Senator Booker. Thank you very much, Mr. Chairman.
    Ms. Dunn, thank you so much for not only being here and 
stepping forward to serve in this position, but for your 
lifetime of service. It is so great to see a powerfully 
prodigious posse of people with you today.
    I want to especially say I am grateful to see your husband 
here, who has one of the best haircuts in the room. It is nice 
to see people who give bald guys a chance. The Chairman has an 
offensive amount of hair for his age.
    I would love to jump in and talk a bit about the Worker 
Protection Standard, Ms. Dunn. I know you are familiar with the 
Worker Protection Standard. It is the primary set of Federal 
standards that protects over 2 million farm workers, including 
half a million children, from the hazards of working with 
pesticides. I met with farm workers in my State and I know this 
is at the top of their concerns.
    The EPA is now considering changes to the Worker Protection 
Standard, including lowering the minimum age requirement that 
prohibits children from handling dangerous pesticides if they 
are under 18 years old. This protection was put in place 
because pesticides can increase the risk of cancer and can 
impact very seriously the development of children.
    Ms. Dunn, if you are confirmed will you commit to 
protecting the Worker Protection Standard and to withdraw any 
proposals to roll it back?
    Ms. Dunn. Senator Booker, thank you so much for bringing up 
that question. In preparation for today, I talked with several 
organizations that are advocates for worker protection groups.
    I think we can all agree that workers should be safe in 
their places of work. They should know that the chemicals they 
are applying will not adversely impact their health.
    Senator, I can commit to you, if confirmed to this 
position, I will immediately find out the status of the 
rulemakings, the work we are doing, and get back to you on 
this. I think it is a very important issue.
    Senator Booker. Thank you very much. It is very important 
and very much on the minds of folks who are concerned about 
their children. I appreciate that commitment at the very least.
    PCBs in schools is another issue. If you are confirmed, 
will you commit to finalizing the rule requiring the 
replacement of light fixtures in schools and day care centers 
that contain PCBs?
    Ms. Dunn. Yes, Senator, it is like worker safety. Where our 
children go to school should be a safe place. My understanding 
is that the issue of PCBs, light fixtures and ballasts is 
something, as a country, we should have taken care of some time 
ago. The dust can adversely affect our children. They are most 
sensitive populations.
    I can commit to you, if confirmed to this position, 
immediately finding out where we are in the status of the PCBs 
and light fixtures in schools and working with your office to 
see if we can accelerate that process so that our children can 
be safe in school.
    Senator Booker. Thank you so much.
    We obviously heard a lot about the TSCA law today. Frank 
Lautenberg was my predecessor in this position, a lion as you 
know, before me. I am concerned again with implementation, as 
others have already expressed in this hearing.
    One area is the failure to consider all the sources of 
exposure that people might have to toxic chemicals. In our 
amended TSCA law, EPA was explicitly told by Congress to 
examine the safety of all known uses of chemicals and the 
combined impact of all exposures to a chemical when making a 
determination about whether a chemical presents unreasonable 
risk of harm.
    The EPA's problem formulations have dramatically narrowed 
the exposures the agency will consider when evaluating the 
safety of the first ten TSCA chemicals. EPA is now saying it 
will ignore known exposures that come from land, air and water 
in deciding whether or not those first ten chemicals are safe.
    Ms. Dunn, I know some of your past work has focused on 
environmental justice. Living in Newark, New Jersey, I see the 
awful, awful effects it has had on our children and others. I 
just believe this is an environmental justice issue often 
disproportionately impacting marginalized Americans, the poor, 
Native Americans, and people of color.
    Communities around our country that are disproportionately 
harmed often see the brunt of the impact of our failure to act. 
Often those are not the people who have lobbyists here or the 
people who have high powered advocates. I am really concerned 
that the EPA's decision to ignore known exposures from land, 
air and water would really hurt communities like mine, where I 
live, and affect them in a more harmful way.
    I know your heart, and having Senator Whitehouse speak so 
kindly of you encourages me a lot, but if confirmed, will you 
commit to me that the EPA will follow the clear statutory 
language of TSCA and comprehensively review the risk of 
chemicals by including known releases of the chemicals into our 
air, water and land that disproportionately affect those 
marginalized communities I mentioned?
    Ms. Dunn. Senator, I, with you, having taught environmental 
justice at three law schools and published on it, I share your 
passion.
    Senator Booker. You did not teach at Rutgers Law School.
    Ms. Dunn. I did not teach at Rutgers. I can only aspire to 
teach at Rutgers Law School.
    Senator Barrasso. You will be happy to be a visiting 
professor.
    Ms. Dunn. I absolutely hear what you are asking. In many 
meetings I had with environmental organizations leading up to 
today, I heard the concern about EPA's current approach to 
looking at exposures.
    What I can commit to you today is making that a top 
priority. It is clearly an issue there is a lot of concern 
around. I would like to get fully briefed by our team, if 
confirmed, and then come back and work with your office, your 
staff and others who have these concerns, and see if we can 
reach resolution on this matter about which people feel very 
strongly.
    Senator Booker. Thank you very much.
    Ms. Dunn. Thank you, Senator.
    Senator Barrasso. Thank you.
    Senator Carper, any final remarks?
    Senator Carper. We will probably have some questions for 
you for the record. I would appreciate your prompt response.
    The point raised by Senator Whitehouse, the responsiveness 
of EPA to our inquiries or oversight letters has been better 
than it was but not good. Maybe you can set a good example for 
your colleagues there.
    I also have some questions for the record for your mother. 
It is not what we normally do but since she has been a part of 
this hearing, I just want to give her a heads up. We will not 
put her under oath for any part of those responses.
    Senator Barrasso. We will also allow her to submit 
questions.
    Ms. Dunn. She may have some for me and I am under oath, 
right?
    Senator Carper. On a more serious note, Mr. Chairman, I 
want to ask unanimous consent to submit for the record several 
reports discussing the Trump Administration's continued failure 
to properly implement the bipartisan Toxic Substances Control 
Act and failure to follow through on its duties to regulate 
pesticides.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    Senator Carper. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you.
    I have a slew of letters of support for Ms. Dunn. You have 
received many numbers of letters from enthusiastic supporters, 
individuals and organizations from all across the political 
spectrum. The Ranking Member and I would like to include these 
letters in the record.
    Without objection, they will be included.
    [The referenced information follows:]
    Senator Whitehouse. Mr. Chairman?
    Senator Barrasso. Senator Whitehouse.
    Senator Whitehouse. Mr. Chairman, late breaking news. Just 
today, I received notice that EPA Region 1 has recognized four 
projects for innovation in the region, one of them being the 
Wellington Avenue, Newport, Rhode Island Combined Sewer 
Overflow Innovation.
    Thank you, Ms. Dunn, for that recognition. I guess that 
just happened in the last 24 hours and was just brought to my 
attention now. Congratulations, Newport, and thank you, Ms. 
Dunn.
    Ms. Dunn. You are very welcome, Senator.
    Senator Carper. That causes me to share with all of you 
that I have served the people of Delaware as their Treasurer, 
Congressman and Senator. In all my years of service, 40 years 
of service almost, I have one thing named after me. It is a 
combined water-sewer overflow under the city of Wilmington.
    Ms. Dunn. It does not get better than that, Senator.
    Senator Barrasso. If there are no more questions for today, 
members are going to be able to submit follow-up written 
questions for the record by 5 p.m. today, if your mom is going 
to do that. The nominee should respond to the questions by noon 
on Monday, December 3rd.
    I want to thank you for your time and testimony, for 
bringing your friends and family, dog walker, friend from high 
school, soccer mom, and the best hockey goalie in the eastern 
United States. Everyone, we are so grateful.
    This hearing is adjourned.
    [Whereupon, at 11:43 a.m., the committee was adjourned.]
    [Additional material submitted for the record follows.]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
  

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
